           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
     CUSTOMER SATISFACTION


  September 2007   A-15-07-17129




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 24, 2007                                                      Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance   Indicator Audit: Customer Satisfaction (A-15-07-17129)

        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 13 of the Social
        Security Administration’s (SSA) performance indicators established to comply with the
        Government Performance and Results Act. Attached is the final report presenting the
        results of one of the performance indicators PwC reviewed. For the performance
        indicator included in this audit, PwC’s objectives were to:
           •   Assess the effectiveness of internal controls and test critical controls over data
               generation, calculation, and reporting processes for the specific performance
               indicator.
           •   Assess the overall reliability of the performance indicator’s computer processed
               data. Data are reliable when they are complete, accurate, consistent and not
               subject to inappropriate alteration.
           •   Test the accuracy of results presented and disclosed in SSA’s Fiscal Year 2006
               Performance and Accountability Report.
           •   Assess if the performance indicator provides a meaningful measurement of the
               program it measures and the achievement of its stated objective.

        This report contains the results of the audit for the following indicator:

           •   Percent of individuals who do business with SSA rating the overall service as
               “excellent”, “very good”, or “good”.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                              Patrick P. O’Carroll, Jr.
        Attachment
MEMORANDUM

Date:      September 12, 2007

To:        Inspector General

From:      PricewaterhouseCoopers, LLP

Subject:   Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)

OBJECTIVE
The Government Performance and Results Act (GPRA) 1 of 1993 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity. 2 GPRA also calls for a
description of the means employed to verify and validate the measured values used to
report on program performance. 3

Our audit was conducted in accordance with generally accepted government auditing
standards for performance audits. For the performance indicator included in this audit,
our objectives were to:

           1. Assess the effectiveness of internal controls and test critical controls over the
              data generation, calculation, and reporting processes for the specific
              performance indicator.

           2. Assess the overall reliability of the performance indicator’s computer
              processed data. Data are reliable when they are complete, accurate,
              consistent and not subject to inappropriate alteration. 4

           3. Test the accuracy of results presented and disclosed in SSA’s Fiscal Year
              (FY) 2006 Performance and Accountability Report (PAR).

           4. Assess if the performance indicator provides a meaningful measurement of
              the program it measures and the achievement of its stated objective.



1
 Public Law Number 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 United States
Code (U.S.C.), 31 U.S.C. and 39 U.S.C.).
2
    31 U.S.C. § 1115(a)(4).
3
    31 U.S.C. § 1115(a)(6).
4
 Government Accountability Office (GAO), GAO-03-273G, Assessing Reliability of Computer Processed
Data, October 2002, p. 3.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                   1
BACKGROUND
We audited the following performance indicator as stated in the SSA FY 2006 PAR:

     Performance Indicator                    FY 2006 Goal                 FY 2006 Actual Results

Percent of individuals who
do business with SSA                                83%                                82%
rating the overall service as
“excellent,” “very good,” or
“good” 5

SSA provides a range of services to the general public including the issuance of social
security cards, and payment of retirement and long-term disability benefits. SSA
provides the general public a variety of service options for conducting business and
obtaining information. These options consist of customers calling SSA’s national toll-
free 800 number, calling and/or visiting local field and hearing offices, and utilizing
SSA's website. The majority of SSA's customers prefer to conduct business by
telephone, and many choose to deal with 1 of the 1,336 local Field Offices (FO) or
143 Hearing Offices (HO).

This performance indicator is linked to SSA’s strategic objective to “Improve service
through technology, focusing on accuracy, security and efficiency,” 6 which is linked to
SSA’s strategic goal “To deliver high quality, citizen-centered Service.” 7 This strategic
goal is linked to one of the five government-wide goals on the President’s Management
Agenda, “Expanded Electronic Government” 8 which addresses all Government
agencies’ ability to simplify the delivery of high quality service while reducing the cost of
delivering those services.

To assess the indicator's progress in meeting this objective and goal, SSA’s Office of
Quality Performance (OQP) annually conducts a series of tracking surveys to measure
a customer’s satisfaction with his or her last contact with SSA. SSA conducts three
surveys: the 800-Number Caller Survey, the FO Caller Survey, and the Office Visitor
(OV) Survey. OQP uses a 6-point rating scale ranging from “excellent” to “very poor.”
To report the final overall service satisfaction, OQP combines the three customer
satisfaction surveys, weighting each survey by the customer universe it represents.

For additional details on the surveys and reporting process, refer to the flowcharts in
Appendix C.
5
    Social Security Administration Performance and Accountability Report, Fiscal Year 2006, p. 90.
6
    Id, p. 84.
7
    Id, p. 74.
8
    http://www.whitehouse.gov/omb/budget/fy2002/mgmt.pdf.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                   2
Indicator Background

800-Number Caller Survey

The 800-Number Caller Survey is conducted with a sample of individuals who received
customer service using the 800-number during the month of March. When a customer
calls the toll free number, the Automatic Number Identifier (ANI) system collects data
about the call, i.e., phone number, date, time, and duration. The sample is randomly
drawn on a biweekly basis from data supplied by the telephone company over the
course of the sample month. OQP excludes calls from blocked numbers, businesses,
pay phones, or other locations where the customer is not identifiable. OQP contracts
with a firm to call the customer, conduct the survey, and compile the responses. OQP
then analyzes and reports the results.

Field Office Caller Survey

The FO Caller Survey is conducted with a sample of individuals who called 1 of
approximately 52 9 randomly selected FOs during the month of April. During the survey
period, an OQP contractor installs caller-ID equipment in sampled FOs on its main
incoming phone lines. Each FO’s caller-ID system records the date and time of contact,
length of call, and phone number of the caller. From the caller population accumulated,
OQP makes a biweekly, random selection of callers over the course of the sample
month. OQP excludes calls from blocked numbers, businesses, pay phones, or other
locations where the customer is not identifiable. OQP contracts with a firm to call the
customer, conduct the survey, and compile the responses. OQP then analyzes and
reports the results.

Office Visitor Survey

The OV Survey is conducted with a sample of individuals who visit either 1 of
approximately 52 FOs or 13 HOs randomly selected over the course of an 8-week
period from July to September. FOs are selected by region, with all 10 SSA regions
represented. Each sampled office participates for 1 week of the sample period. The
FO or HO records each customer’s name, address, telephone number, and reason for
the visit and forwards this information electronically to OQP daily. Every 2 to 3 days,
OQP selects a random sample of customers to participate in the survey. A contractor
mails the survey to the selected customers. Customers are asked to return the survey
directly to OQP, for analysis and reporting of results.

Combination of the Three Survey Results

Once all three of the OQP annual surveys have been completed, OQP combines the
three individual survey results (each weighed by the customer universe) and reports this

9
 Each year approximately 52 FOs are selected for review. This number can be slightly higher or lower
depending on numerous factors.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                     3
information to the Office of Strategic Management (OSM). OSM in turn reports and
publishes the survey results in SSA's PAR.

For additional detail on the surveys and reporting process, refer to the flowcharts in
Appendix C.

RESULTS OF REVIEW

Our assessment of the indicator included in this report did not identify any exceptions
related to the accuracy or presentation of information included in the PAR. We were
able to recalculate and verify SSA’s overall customer satisfaction percentage presented
in the FY 2006 PAR. 10 We also found that SSA management improved the
transparency of the FY 2006 performance results by disclosing its participation in a
Government-wide survey on customer satisfaction results across multiple Federal
Government agencies.

However, SSA management could improve the performance indicator’s linkage to the
strategic objective. In addition, we did identify issues with internal controls related to
documentation of the survey processes. We also concluded that a potential bias exists
in the customer satisfaction survey sample selection process and response rate. It
should be noted that these issues were initially identified in a previous audit report. 11
We did not identify any new issues during this year's audit.

Findings

Internal Controls

Although we were able to recalculate and verify the result reported in the PAR, we
found that SSA did not have sufficient and current documentation of the performance
indicator calculation process. During the prior audit of this indicator, Performance
Indicator Audit: Overall Service Rating (A-15-05-15118), we noted that several
calculations were not completely and accurately documented. During the current audit,
we found that this issue had not been addressed. The absence of “…well-defined
documentation processes that contain an audit trail, verifiable results, and specify
document retention periods so that someone not connected with the procedures can
understand the assessment process…” 12 did not comply with standards defined by the

10
   OQP uses ANI data furnished by SSA’s 800-number service provider. The scope of our audit did not
include a review of this computer system. Accordingly, the second audit objective, to assess data
reliability as defined by GAO, did not apply to this indicator as computer data was not processed by SSA
to support the reported results. The first audit objective, to assess internal controls, includes the results
of our review of internal controls over manually processed data.
11
     Performance Indicator Audit: Overall Service Rating (A-15-05-15118) issued October 4, 2005.
12
 Revision to OMB Circular A-123, Management’s Responsibility for Internal Control,
December 21, 2004, p. 6.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                              4
Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility
for Internal Control.

A potential bias exists within SSA's survey results. This potential bias exists because
SSA conducts the surveys from a limited time period (e.g., 1 or 2 months during the FY)
and then projects the results from these surveys to the entire FY. The results from the
time period not sampled may have been substantially different from the results of the
time period sampled. SSA did not provide analysis to substantiate the assertion that the
results from the sample period were representative of the months not included within
the survey.

Furthermore, an additional potential bias exists as the survey does not seek to
compensate or adjust for non-responsive surveys. Non-response in surveys can often
lead to biased results if respondents and non-respondents have different views on
customer satisfaction. Typically, organizations will periodically evaluate the effect of
non-response, such as statistical tests between respondents and non-respondents for
characteristics believed to be correlated with customer satisfaction.

Performance Indicator Meaningfulness

This indicator measures the service satisfaction of SSA customers who called the 800
number, called a FO, or visited a FO or HO. During the prior audit of this indicator,
Performance Indicator Audit: Overall Service Rating (A-15-05-15118), we noted that
the performance indicator did not clearly support SSA’s strategic objective to "Improve
service through technology, focusing on accuracy, security and efficiency" since there
was no linkage defined between the performance indicator and the improvement of
service through technology. During the current audit, we found that this issue had not
been addressed. We do however believe that this performance indicator supports the
strategic goal “to deliver high quality, citizen-centered service.”

CONCLUSION AND RECOMMENDATIONS
We reaffirm our previous recommendations noted in the prior audit of this indicator. We
continue to recommend that SSA take action to address these recommendations.
(Refer to Appendix E for the prior audit recommendations.)

In addition, we recommend SSA:

   1. Increase the period of time covered through these surveys or gather and
      maintain evidence which supports the assertion that the results of these surveys
      would not vary if additional survey periods were used. In addition, if SSA
      continues to use the current sampling parameters, the Agency should ensure
      that the limited sampling periods are clearly articulated within the description of
      this performance measure in the PAR.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                         5
   2. Periodically analyze respondent and non-respondent characteristics and their
      respective representation of the population. Segments of the population lacking
      coverage may be an indication of non-response bias. Model-based techniques
      using information gathered on respondents may be helpful to assess the impact
      of non-response.

AGENCY COMMENTS
SSA partially agreed with recommendation 1. SSA agreed to ensure the limited
sampling period is articulated in the FY 2007 PAR description. However, SSA did not
agree with increasing the period of time covered by the surveys. SSA stated that the
benefit of conducting surveys more frequently is not sufficient to justify the time and
expense to administer the surveys.

SSA agreed in theory with recommendation 2. SSA agreed to conduct analysis on the
characteristics of the Office Visitor Survey including the reason for the visit. However,
SSA stated there is little meaningful data available regarding characteristics of the
sample population that could be correlated to customer satisfaction.

The full text of SSA’s comments can be found in Appendix F.

PWC RESPONSE
In response to SSA’s comments on recommendation 1, we believe SSA should
continue to review and analyze the survey results for trends. If significant trends are
noted, SSA should conduct surveys more frequently, and consider performing
abbreviated surveys on smaller samples.

For recommendation 2, we believe that SSA should use the results of the Office Visitor
Survey analysis to determine other characteristics that may be related to customer
satisfaction. If limited sample data hinders this analysis, SSA may want to consider
trying to capture additional characteristics for its survey data. In addition, SSA should
consider the effect of nonresponse for characteristics believed to be correlated with
customer satisfaction.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                          6
                                           Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Statistical Methodology

APPENDIX E – Prior Audit Recommendations

APPENDIX F – Agency Comments




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)
                                                                     Appendix A
Acronyms


 ANI      Automatic Number Identifier
 CATI     Computer Assisted Telephone Interviewing
 FO       Field Office
 FY       Fiscal Year
 GAO      Government Accountability Office
 GPRA     Government Performance and Results Act
 HO       Hearing Office
 OMB      Office of Management and Budget
 OQP      Office of Quality Performance
 OSM      Office of Strategic Management
 OTSO     Office of Telecommunications and Systems Operations
 OV       Office Visitor
 PAR      Performance and Accountability Report
 SSA      Social Security Administration
 U.S.C.   United States Code




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and questions of SSA management. We also requested SSA to
provide various documents regarding the specific programs being measured as well as
the specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following:

   •   Reviewed prior SSA, Office of the Inspector General and other reports related to
       SSA’s GPRA performance and related information systems.
   •   Reviewed applicable laws, regulations and SSA policy.
   •   Met with the appropriate SSA personnel to confirm our understanding of the
       performance indicator.
   •   Flowcharted the process. (See Appendix C).
   •   Tested key controls related to manual or basic computerized processes (e.g.,
       spreadsheets, databases, etc.).
   •   Conducted and evaluated tests of the automated and manual controls within and
       surrounding each of the critical applications to determine whether the tested
       controls were adequate to provide and maintain reliable data to be used when
       measuring the specific indicator.
   •   Identified attributes, rules, and assumptions for each defined data element or
       source document.
   •   Recalculated the metric or algorithm of the performance indicator to ensure
       mathematical accuracy.
   •   We assessed the completeness and accuracy of the data to determine the data's
       reliability as it pertains to the objectives of the audit.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicator appeared to be valid and appropriate given our
understanding of SSA’s mission, goals, objectives and processes.



Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                      B-1
We followed all performance audit standards in accordance with generally accepted
government auditing standards.

In addition to these steps, we specifically performed the following to test the indicator
included in this report:

      •   Assessed the sample selection methodology, including the creation of the
          sample frame.
      •   Recalculated the survey results, including the survey weights, for each of the
          three types of performance surveys.
      •   Recalculated the combined survey results for the SSA customer satisfaction
          performance indicator.
      •   Tested key controls over the Blaise 1 software used to calculate the Office Visitor
          Survey results.




1
    SSA personnel input the Office Visitor Survey results into the Blaise software for analysis and reporting.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                         B-2
                                                                       Appendix C
Flowcharts
800-Number Caller Survey - Process Flowchart                     C-1
Field Office Caller Survey - Process Flowchart                   C-3
Office Visitor Survey - Process Flowchart                        C-5
Survey Calculation - Process Flowchart                           C-7




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)
                                                                Customer Service Survey
          Sample Method
                                                                 800 Number Customer
                                                               Contractor                     Contractor
                                                              records 800                furnishes Office of           OQP identifies and sorts          OQP identifies
                                                                                                                                                                                   OQP selects random sample
                             Customer calls 800            Number call data                    Quality                 caller data by completed      completed calls and
  Sample Process Start                                                                                                                                                              of 2600 eligible callers to
                                  Number                   in the Automatic                 Performance                     calls (a) within         stratifies the calls by
                                                                                                                                                                                       participate in survey
                                                           Number Identifier                 (OQP) with                    sampling period              eligible calls (b)
                                                             (ANI) system                 captured call data



          800 Number Caller Survey Process
                                        Contractor converts
                                                                                                                                   Trained contractor staff
                                       survey questionnaire        OQP remotely tests         OQP sends electronic
                                                                                                                               administers survey to sampled
     OQP provides contractor               to Computer                questionnaire           files of sampled calls                                                  OQP remotely monitors
                                                                                                                               telephone numbers, recording
    with Survey Questionnaire           Assisted Telephone          conversion in the            to the contractor                                                      interviewing staff
                                                                                                                              responses into CATI system and
                                       Interviewing (CATI)            CATI system                        (c)
                                                                                                                              screens “Out-of-Scope” calls (d)
                                              format



                                 Contractor extracts survey         Contractor reviews
                                                                                                Contractor requests             OQP provides
                                data from CATI system and            and submits final
                                                                                                 confirmation that             confirmation that         Contractor destroys all
                                 provides OQP interim data            survey data and
                                                                                                   final data is                 final data is                survey data
                                files and progress report for       progress report to
                                                                                                    acceptable                    acceptable
                                 each sample list via email                OQP



                                                                                                                                OQP calculates
                                                                                                                                 survey result

  a) A completed call is a call in which the customer has selected to speak with a Social Security Administration (SSA) representative or selected another option from the automated
system.

 b) An eligible call is one that meets one of the following criteria:
      (i) In the FY 2006 survey, the hours for an eligible call were 7 a.m. to midnight Eastern Standard Time (EST) because SSA was piloting expanded hours of live service. SSA has discontinued this pilot, so the
         hours for an eligible call will revert to 7 a.m. to 7 p.m. local time for the FY 2007 survey.
     (ii) Multiple calls from the same phone number (if less than 100) are given one opportunity for selection within a bi-weekly sample period.
     (iii) Calls made during the sample period from telephone numbers not previously sampled during survey period.

 c) Over the 4 week survey period OQP randomly selects approximately 130 callers per day from the recorded caller population provided by contractor.
 d) Contractor has 3 weeks to conduct telephone interviews and key responses into the CATI system. Contractor must attempt to make contact at least 15 times over the course of the 3 week
 period. “Out-of-Scope” calls are calls from businesses, pay-phones, blocked numbers and other non-residential locations where the caller is not identifiable.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                                                                                                                                C-1
Customer Service Survey – 800-Number Caller:

   •   The customer calls the Social Security Administration (SSA) 800-Number.
   •   The Automatic Number Identifier (ANI) system records the customer data.
   •   Contractor furnishes the Office of Quality Performance (OQP) with the ANI
       data.
   •   OQP selects the completed calls within the sampling period from the ANI
       data. A completed call is a call where the customer has selected to speak
       with a SSA representative or selected an option from the automated menu.
   •   OQP selects eligible calls from the population of completed calls. An
       eligible call is a call made between 7 a.m. and 7 p.m. during the caller’s
       local time, originating from a phone number that made fewer than 100 calls
       to SSA that day, and was made during the survey sample period. During
       Fiscal Year 2006 the hours for an eligible call were expanded to the hours
       between 7 a.m. and Midnight EST.
   •   OQP selects a random sample of callers to participate in the survey from
       the list of eligible calls.
   •   OQP provides the contractor with the survey questions.
   •   The contractor converts the questions into Computer Assisted Telephone
       Interviewing (CATI) software.
   •   OQP tests and validates the converted questionnaire.
   •   OQP sends an electronic file with the selected customers’ information to
       the contractor.
   •   The contractor administers the survey.
   •   The contractor compiles survey responses and sends them electronically
       to OQP.
   •   OQP analyzes the final results.
   •   OQP applies the individual survey weight to the sample data and
       calculates the individual survey results.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                  C-2
                                                                                Customer Service Survey
                                                                                   Field Office Caller
        Sample Method

                                                                                                                                       Contractor collects call
                                              OQP randomly selects           Contractor installs
                                                                                                                                       data. OQP downloads
                                              Field Office’s (FOs) to      caller-id equipment in                                                                    OQP randomly selects a sample
               Sample Process Start                                                                         Customer calls FO           data from contractors
                                                 participate in the         each sampled FO to                                                                         of eligible FO Callers (b)
                                                                                                                                            secure server
                                                    survey (a)               capture caller data




        FO Caller Survey Process


                                                                                                                                     Trained contractor staff
                                                                        OQP remotely tests
                  OQP provides                 Contractor converts                                  OQP sends electronic         administers survey to sampled
                                                                           questionnaire                                                                                OQP remotely monitors
              contractor with survey            questionnaire to                                    files of sampled calls       telephone numbers, recording
                                                                         conversion in the                                                                                interviewing staff
                  questionnaire                  CATI format                                           to the contractor        responses into CATI system and
                                                                           CATI system
                                                                                                                                screens “Out-of-Scope” calls (c)




                                        Contractor extracts survey
                                                                                                      Contractor requests           SSA provides
                                       data from CATI system and        Contractor reviews
                                                                                                       confirmation that           confirmation that          Contractor destroys all
                                        provides OQP interim data        and submits final
                                                                                                         final data is               final data is                 survey data
                                       files for each sample list via   survey data to OQP
                                                                                                          acceptable                  acceptable
                                                    email



                                                                                                                                    OQP calculates
                                                                                                                                     survey result




    a) The FO sample is a subset of approximately 110 randomly selected FOs that are included every year in the remote service observation undertaken separately by OQP to evaluate accuracy of
    information provided to callers by FO staff.

    b) Over a 4 week period OQP randomly selects 2600 numbers from the recorded caller population. An eligible call is one that meets one of the following criteria:
         (i) Multiple calls from the same phone number (if less than 100) are given one opportunity for selection within a sample period.
        (ii) Calls made during the sample period and telephone number was not previously sampled during survey period.

    c) The contractor has 3 weeks to conduct telephone interviews and key responses into the CATI system. The contractor must attempt to make contact at least 15 times over a three week period. “Out-
    of-Scope” calls are calls from businesses, pay-phones, blocked numbers, personal calls to SSA employees (Note that personal calls to SSA employees are not an issue for the 800 Number Caller Survey)
    and non-residential locations where the caller is not identifiable.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                                                                                                                          C-3
Customer Service Survey – FO Caller:

   •   OQP selects the FOs to participate in the survey.
   •   The contractor installs caller-id equipment in each of the sampled FOs to
       capture call data.
   •   Customers call the FOs.
   •   The telephone contractor downloads and extracts customer information
       from the caller-id equipment.
   •   The contractor provides an electronic file of the caller information to OQP.
   •   OQP extracts the data from the electronic file.
   •   OQP selects a sample of eligible FO callers to participate in the survey.
   •   OQP provides the contractor with the survey questions.
   •   The contractor converts the questions into CATI software format.
   •   OQP remotely tests and validates the converted questionnaire.
   •   OQP sends an electronic file with the selected customers’ information to
       the contractor.
   •   The contractor administers the survey.
   •   The contractor compiles survey responses and sends them electronically
       to OQP.
   •   OQP analyzes the final results.
   •   OQP applies the individual survey weight to the sample data and
       calculates the individual survey results.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                    C-4
                                                                                   Customer Service Survey
                                                                                        Office Visitor
    Sample Method


                                                                                                                     Sampled FOs and HOs              OQP selects a sample of 130 names
                                               OQP selects random sample
                                                                                                                       submit identifying             per day from the reported population
                    Sampling Process           of FOs and Hearing Offices            OQP notifies the                                                                                                 Electronic
                                                                                                                    customer information to              from each office and sends the
                         Start                           (HOs)                     sampled FOs and HOs                                                                                               notification
                                                                                                                             OQP                              sample to contractor
                                                           (a)
                                                                                                                              (b)                                      (c)




    Office Visitor Survey Process



                                                                                                                                                                                                OQP reviews keyed
                                              Contractor prints and
                                                                            Customer completes          OQP date stamps the received          OQP staff retrieve customer records and         surveys comparing hard
                        Electronic              mails survey to
                                                                             and returns survey        survey and inputs these surveys         records the written responses into the          copy questionnaires to
                       notification             OQPs sampled
                                                                                via US mail               into a case control system                      Blaise database                     the initial keyed data in
                                                  individuals
                                                                                                                                                                                                  Blaise database



                                                OQP compares and reconciles
                                                the total number of records in         Survey results are
                                               Blaise to the total number in the         extracted to a
                                                                                                                  OQP calculates survey result
                                                 Access case control system,            spreadsheet for
                                               reviewing batches as necessary              tabulation
                                                 to resolve any discrepancies




  a) Over an 8 week period OQP randomly selects:
      i) 52 FOs, selected by region with all 10 SSA regions represented and;
     ii) 13 HOs without regard to region as there are only 143 offices.

  b) Sampled FOs and HOs submit information to OQP identifying individuals that visited their office during their designated week..

  c) Office of Quality Performance selects 130 names per day from all FOs and HOs during their participating week; these visitors are randomly selected with no stratification by FO, HO or
  Region and are assigned a control number.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                                                                                                                                  C-5
Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)   C-6
Customer Service Survey – Office Visitor:

   •   OQP selects a random sample of FOs and HOs to participate in the survey.
   •   OQP notifies the FO and HO of their selection to participate in the survey.
   •   The customer visits the FO or HO.
   •   The FO or HO enters the customer’s information into a tracking system when the
       customer checks in at the reception desk.
   •   The FO or HO sends the electronic list of customers and their information to
       OQP.
   •   OQP selects a random sample of customers to participate in the mailed survey.
   •   OQP electronically sends the names and addresses of selected customers to the
       contractor.
   •   The contractor administers the survey via mail.
   •   The customer returns the survey to OQP after completion.
   •   OQP date stamps and enters the survey responses into Blaise.
   •   OQP reviews the information entered into Blaise for completion.
   •   OQP analyzes the final results.
   •   OQP then extracts the results to a spreadsheet for tabulation and applies the
       individual survey weight to the sample data and calculates the individual survey
       results.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                 C-7
                                                                          Customer Service Survey
         Start Calculation
                                                                          Calculation Methodology
                                                                  Case weight is based on the number of
                                  800# Survey                       eligible calls and completed surveys
                                spreadsheet Data                   for each biweekly sample period (i.e.,
                                                                  a separate weight is computed for each
                                                                               sample period).




                                   FO Survey                       Case weight is applied based on the
                                                                                                                                                  Individual Survey
                                spreadsheet Data                  number of eligible calls and completed
                                                                                                                                                     Results (a)      OQP analyzes results
                                                                   surveys within the FO for the entire
                                                                                  period




                                                                    Stage one: FO case weight is applied
                                                                    based on the ratio of sampled FOs to
                                                                   the number of eligible FOs within the
                                                                                   region                                                                              OQP combines the
                              Office Visitor (OV)                                                                                                                        three results to
                              Survey spreadsheet                                                                     The final case weight is the first
                                                                                                                                                                          calculate the
                                     Data                                                                             stage weight multiplied by the
                                                                                                                                                                        indicator results
                                                                                                                           second stage weight.

                                                                   Stage one: HO case weight is applied
                                                                   based on the ratio of sampled HOs to
                                                                   the totals number of HOs nationwide
                                                                                                                                                                      OQP reports survey
                                                                                                                                                                      results to the Office
                                                                                                                                                                          of Strategic
                                                                                                                                                                      Management (OSM)
                                                                   Stage two: OV case weight is applied
                                                                   based on the universe of all visitors of
                                                                   participating offices on the day of the
                                                                                    visit.



 a) Before calculating the final indicator result, the satisfaction rate for each survey is projected to the annual universe for the pertinent mode of contact.
    Annual Universe for each survey is as follows:
    (i) The 800 number caller universe is based on calls handled for the fiscal year, as published in SSA’s Annual Performance Plan.
   (ii) The FO caller universe is based on the most recent projections available from OQP’s FO Telephone Service Evaluation.
  (iii) The office visitor universe is projected from universe data collected during sample identification for the survey.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                                                                                                            C-8
Customer Service Survey – Calculation of Overall Survey results:

   •   OQP analyzes the individual survey results.
   •   OQP applies individual survey weights to the sample data for each
       individual survey and calculates the final individual survey results.
   •   OQP analyzes these final results.
   •   OQP combines the three individual survey results weighted by customer
       universe to calculate the overall customer satisfaction survey results.
   •   OQP writes and publishes a report on customer satisfaction and distributes
       the report throughout SSA.
   •   OQP reports customer satisfaction for the performance indicator to OSM.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                  C-9
                                                                      Appendix D

Statistical Appendix
PricewaterhouseCoopers reviewed this performance indicator during the Fiscal Year
(FY) 2004 Government Performance and Results Act (GPRA) audit. During the
FY 2006 GPRA audit, we found no significant changes to the sampling and estimation
models used to calculate this performance indicator. As such, our previous assessment
of the sampling and estimation models used by Social Security Administration (SSA)
management in FY 2004 is consistent with the sampling and estimation models used in
FY 2006. Our assessment of the sampling and estimation models is included below.

Methodology for the Sample Selection of Survey Participants

800 Number Caller Survey

In FY 2006, the Office of Quality Assurance and Performance Assessment (OQP)
randomly selected a sample of 2,600 phone numbers of customers who called SSA’s
800 number to participate in the 800-Number Caller Survey. The sample was selected
from a population of all phone numbers of callers that received customer service
through the 800 number during the month of March. As the samples were drawn, OQP
excluded phone numbers sampled previously during the month, phone numbers that
reached the 800 number 100 times or more within a single day and calls made between
7pm and 7am local time. Calls from blocked numbers, businesses, pay phones, or
other locations where the customer is not identifiable were excluded during the interview
process. Service to SSA’s 800 Number callers is provided by agents in teleservice
centers and units in SSA’s program service centers. The Field Offices (FO) and
Hearing Offices (HO) do not provide customer service via the 800-number, therefore
OQP does not select FOs or HOs to participate in this survey.

Field Office Caller Survey

Each year, OQP selects a sample of 110 offices to participate in its FO Telephone
Service Evaluation, a review in which calls are monitored from remote locations to
ensure accuracy. OQP selects the sample without replacement from the current
population of eligible FOs. Eligible FOs are offices that have not been selected in
previous years.

From this initial sample of 110 FOs, OQP selects a sub-sample of offices to participate
in the FO Caller Survey. The sub-sample is a systematic sample from the parent
sample, after sorting the parent sample by telephone system, region, and area. Thus,
the sample of offices included for the FO Caller Survey has a distribution of telephone
system type, region, and area similar to the parent FO Telephone Service Evaluation


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                    D-1
sample. In FY 2006, the sub-sample of offices selected for the FO Caller Survey
consisted of 75 of the 110 offices from the FO Telephone Service Evaluation. Because
of phone system limitations, not all sub-sampled offices can be equipped to enable
identification of phone numbers for survey sample selection purposes; in FY 2006, 52 of
the 75 offices initially sub-sampled could be equipped as necessary. From the
population of phone numbers identified in the sub-sampled offices, OQP selected a
sample on a biweekly basis during the month of April of 2,600 phone numbers of field
office callers to participate in the survey. OQP excluded from the sample all phone
numbers that appeared to be invalid and phone numbers sampled in the previous
biweekly selections for the FY 2006 survey. In addition, during the interview process,
calls from blocked numbers, businesses, pay phones, or other locations where the
customer was not identifiable were excluded, as were personal calls to field office
employees.

The FO Caller Survey sample is drawn from all incoming lines an office has for public
use. Although all FOs handle the same types of business over the phone, depending
on the size of the office, some have one type of line and some have two types available
to receive incoming calls. The sample selection process takes into account whether a
particular office has one or two types of public lines available to ensure that all incoming
phone numbers have an opportunity for selection. An approximately equal number of
calls is sampled from each FO.

Office Visit Survey

OQP performs the Office Visitor Survey on an annual basis. The FY 2006 Office Visitor
Survey was conducted at 52 FOs 1 and 13 HOs for the year. For each survey execution,
the offices are selected without replacement from the current list of eligible FOs or HOs.
Eligible offices are those that have not been selected in previous years.

While HOs are selected as a simple random sample, OQP selects FOs in a stratified
random sample by region. The number of FOs from each region is proportional to the
number of FOs in that region.

Each sampled office participates for 1 week of the 8-week survey period, which extends
from July to September. During their designated week, sampled offices submit
identifying information to OQP every day for each individual who visited. OQP selects a
random sample of 5,000 customers at the rate of 130 per day from the reported
population to participate in the Office Visitor Survey. Customer records without a valid
address and visitors already sampled for the current survey in a previous daily selection
were excluded from the sample selection. Office visitors of offices that were not part of
the initial field office and hearing office sample did not have an opportunity for selection.




1
    The 52 FOs used in the Office Visit Survey are not the same 52 FOs used in the FO Caller Survey.


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                                     D-2
Calculation of the Survey Results

When determining the estimated percentage of Excellent (6) responses for overall
satisfaction, SSA summed the weights for the Excellent responses and divided by the
total weight of all valid responses.

                             ∑W  j =1
                                               6j

               R=            6

                           ∑ ∑W
                           i =1         j =1
                                                     ij


              where i is the value of the response (ranging from 1-6)
                    j is the number of the respondents and
                   W ij is the weight of the jth person whose response was i

When determining the estimated percentage of Excellent/Very Good/Good (6/5/4)
responses for overall satisfaction, SSA summed the weights for the Excellent/Very
Good/Good responses and divided by the total weight of all valid responses.
                             6

                           ∑ ∑W
                           i =4         j =1
                                                     ij

               R=             6

                           ∑∑W
                             i =1 j =1
                                                    ij


              where i is the value of the response (ranging from 1-6)
                    j is the number of the respondents and
                   W ij is the weight of the jth person whose response was i

Calculation of the Combined Overall Survey Result

SSA combined the results from the three surveys to derive one overall measure of
customer satisfaction. The percentage of Excellent responses for a survey (or
Excellent/Very Good/Good) was multiplied by its projected universe for each of the
universes: 800 Number Caller, FO Caller, and Office Visitors (FO Visitor and HO
Visitor). These numbers were then added together and divided by the total universe.

                3

               ∑ (R
               k =1
                             k*    Uk )
                       3

                    ∑Uk =1
                                   k


              where k represents either 800 Number Caller, FO Caller, or Office Visitors
                    (FO Visitor and HO Visitor).
                    Rk is the percentage of Excellent (or E/VG/G) responses in the kth
                    universe


Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                    D-3
                     Uk is the population total for the kth universe




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)     D-4
                                                                         Appendix E
Prior Audit Recommendations
During a prior audit, “Performance Indicator Audit: Overall Service Rating
(A-15-05-15118),” we made seven recommendations to the Social Security
Administration (SSA) for the performance indicator “Percent of People who do business
with SSA rating the overall services as “‘excellent,’ ‘very good,’ and ‘good.’” During the
current audit, we found that the following two recommendations had not been
addressed:

1.     Improve documentation of policies and procedures. The documentation should
       be complete and accurate to define all of the steps ultimately used to report
       performance results in the Performance Accountability Report. Estimates and
       calculations used to generate the survey results should be clearly documented
       and supported to readily enable an independent assessment. SSA management
       should annually update and take ownership of the documentation in compliance
       with Office of Management and Budget (OMB) A-123 guidance.

2.     Provide a direct linkage of the performance indicator to the Agency’s strategic
       goals and objectives. SSA should expressly comply with criteria established by
       Government Performance and Results Act and OMB PART guidance, which
       requires performance indicators be linked to the Agency’s relevant strategic goal
       and objective. If a direct linkage can not be supported, the Agency should
       disclose the basis for selecting the indicator and why it diverts from established
       criteria. SSA should further consider indicators which include satisfaction from
       internet users and other technology investments that support the strategic
       objective.

During the fiscal year (FY) 2006 audit, SSA management stated that it will provide a
direct linkage to this indicator's strategic goals and objectives. Per SSA, this linkage will
be available in the FY 2007 Performance and Accountability Report that is scheduled to
be issued in November 2007.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)
                                                                     Appendix F
Agency Comments




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 10, 2007                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/


Subject:   Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit: Customer
           Satisfaction” (A-15-07-17129)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on (410) 965-4636.


           Attachment




           Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                           F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S (OIG) DRAFT
REPORT, “PERFORMANCE INDICATOR AUDIT: CUSTOMER SATISFACTION”
(A-15-07-17129)

Thank you for the opportunity to review and provide comments on this draft report. Our
comments on the draft recommendations are as follows.

Recommendation 1

Increase the period of time covered through these surveys or gather and maintain evidence which
supports the assertion that the results of these surveys would not vary if additional survey periods
were used. In addition, if SSA continues to use the current sampling parameters, the Agency
should ensure that the limited sampling periods are clearly articulated within the description of
this performance measure in the Performance and Accountability Report (PAR).

Comment

We partially agree. We have taken the necessary action to ensure that the limited sampling
period is clearly articulated within the description of this performance measure in the fiscal year
(FY) 2007 PAR. We do not believe the benefits would be sufficient to justify the additional
expenditure of resources, either in staff time or contractor funding, that would be necessary to
support an increase in the period of time covered through these surveys. As we explained in our
response to the FY 2005 audit recommendation, the 800 Number Caller Survey began in the late
1980’s on a quarterly basis and was later reduced to a semi-annual and subsequently annual
survey because the fluctuations in results were minimal and resources to conduct the surveys
were constrained. Similarly, the Field Office Caller and Office Visitor Surveys were originally
implemented on a semi-annual basis and later became annual surveys because, given the
consistency of results, the resource expenditure could not be justified.

Recommendation 2

Periodically analyze respondent and non-respondent characteristics and their respective
representation of the population. Segments of the population lacking coverage may be an
indication of non-response bias. Model-based techniques using information gathered on
respondents may be helpful to assess the impact of non-response.

Comment

We agree in theory. However, as we explained in our response to the FY 2005 audit
recommendation, for the performance measure surveys, there is little meaningful data available
regarding characteristics of the sample population that could be correlated to customer
satisfaction. The sample data available for the 800 Number and Field Office Caller Surveys
consists essentially of the incoming telephone number and the date and time of the call and does
not include any demographic or programmatic information about the caller. Sample data for the
Office Visitor Survey does include the broadly categorized reason for the visit, which we agree




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                              F-2
could be a characteristic to analyze for responders and non-responders in relation to satisfaction.
We will undertake this analysis for the Office Visitor Survey that will be used to calculate the
FY 2007 performance indicator. It should also be noted that for each of the surveys, we compare
the proportions of the various categories of nonresponse (refusal, unable to reach the caller
despite repeated attempts, etc.) to previous years to determine whether there have been any major
changes in the nature of nonresponse.




Performance Indicator Audit: Customer Satisfaction (A-15-07-17129)                             F-3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
